ni

OCKLE

2311 Douglas Street CA E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B rie fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegaloriefs.com

Fax: (402) 342-4850
No, 21-57

LEVI FRASIER,
Petitioner,
v.
CHRISTOPHER EVANS, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), 1 certify that the BRIEF OF LEGAL
SCHOLARS OF QUALIFIED IMMUNITY AS AMICI CURIAE IN SUPPORT OF PETITIONER
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5438 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 13th day of August, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

; GENERAL ROTARY State of Nebraska ( he ab iter & Chk
. RENEE J, GOSS

fy Coram. Exp. September ยง, 2023
Notary Public Affiant 41241
